<html>
<title> - DEPARTMENT OF DEFENSE SECURITY COOPERATION AND ASSISTANCE PROGRAMS AND AUTHORITIES</title>
<body><pre>[Senate Hearing 114-655]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-655
 
                     DEPARTMENT OF DEFENSE SECURITY
                  COOPERATION AND ASSISTANCE PROGRAMS
                            AND AUTHORITIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 9, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
        
        
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-808 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
       
        
        
        


                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman        JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma               BILL NELSON, Florida
JEFF SESSIONS, Alabama                  CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi            JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire             JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                   KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                    RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota               JOE DONNELLY, Indiana
JONI ERNST, Iowa                        MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina             TIM KAINE, Virginia
DAN SULLIVAN, Alaska                    ANGUS S. KING, JR., Maine
MIKE LEE, Utah                          MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                
                                    
                    Christian D. Brose, Staff Director
                    Elizabeth L. King, Minority Staff Director
                                    

                          __________________

           Subcommittee on Emerging Threats And Capabilities

  DEB FISCHER, Nebraska, Chairman     BILL NELSON, Florida
KELLY AYOTTE, New Hampshire           JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                  JEANNE SHAHEEN, New Hampshire
JONI ERNST, Iowa                      KIRSTEN E. GILLIBRAND, New York
THOM TILLIS, North Carolina           JOE DONNELLY, Indiana
LINDSEY GRAHAM, South Carolina        TIM KAINE, Virginia
TED CRUZ, Texas                      
                                     
                                     
                                (ii)

  


                         C O N T E N T S
                          _____________

                             March 9, 2016

                                                                   Page

Department of Defense Security Cooperation and Assistance             1
  Programs and Authorities.

Eggers, Jeffrey W., Senior Fellow, International Security             2
  Program, New America Foundation.
Dalton, Melissa G., Fellow and Chief of Staff, International         11
  Security Program, Center for Strategic and International 
  Studies.
McNerney, Michael J., Associate Director, International Security     21
  and Defense Policy Center, Rand Corporation.

                                 (iii)


                     DEPARTMENT OF DEFENSE SECURITY



                  COOPERATION AND ASSISTANCE PROGRAMS



                            AND AUTHORITIES

                              ----------                              


                        WEDNESDAY, MARCH 9, 2016

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Deb 
Fischer (chairwoman of the subcommittee) presiding.
    Subcommittee members present: Senators Ayotte, Fischer,
Cotton, Ernst, Nelson, Gillibrand, and Kaine.

            OPENING STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. The hearing will come to order. Welcome,
everyone.
    The subcommittee meets today with a panel of outside 
experts to review the security cooperation strategy and 
associated legal authorities and resourcing of the Department 
of Defense.
    It is my goal that today's hearing will provide the 
committee with a better understanding of the framework and 
tools through which the Department identifies, prioritizes, and 
executes security cooperation activities around the world, as 
well as identify areas for improvement and reform as we prepare 
to draft the NDAA
[National Defense Authorization Act] .
    Put more simply, is the current strategy and framework for 
engaging with, training, and equipping the security forces of 
partner nations accomplishing the security objectives of the 
Department of Defense and the broader U.S. Government? If not, 
what should we change?
    Numerous studies over the years, including some written by 
our witnesses, have noted the challenges confronting the 
Department's ability to plan, execute, and assess its security 
cooperation activities. These challenges include the growing 
disconnect between strategic priorities and the alignment of 
resources, the difficulty of navigating the unwieldy and 
cumbersome patchwork of over 100 related security cooperation 
authorities, and the inability of the Department to effectively 
assess whether its activities are achieving their desired 
outcomes.
    As the Nation increasingly relies on the U.S. military to 
execute security cooperation and building partnership 
activities around the world, there must be a commensurate 
emphasis on ensuring the Department is appropriately postured 
to execute this mission effectively.
    I would now ask Senator Nelson for any opening remarks that 
he would like to make.

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Well, thank you, Madam Chair.
    Welcome.
    Over the past decade and a half, the Department's 
authorities to conduct security cooperation and building 
partnership capacity activities--it has expanded. That has 
created some observers to note this patchwork that the chairman 
has mentioned that allows the Department to conduct train-and-
equip activities in a variety of niche areas with varying 
constraints. Funding for these activities has also grown, 
contributing to a change in the traditional balance within the 
State and Defense Departments.
    That expansion of authority and funding has complicated how 
do you set the priorities on a lot of these activities. How do 
you build well trained personnel and how do you develop the 
policy architecture to support all of this? The Department has 
done a lot of work in this area.
    Now, what I think we need to do is improve the transparency 
and how do we measure the effectiveness.
    I would like to hear you all talk about it. Give us an 
assessment of DOD's security cooperation and assistance 
activities. Discuss whether this committee should make any 
changes to the current authorities and talk about how the 
Department can measure the effectiveness of the programs and 
what are lessons learned.
    Thank you.
    Senator Fischer. Thank you, Senator Nelson.
    I would now turn to our witnesses. Your full statements 
will be submitted for the record. Thank you for that. I would 
ask each of you if you would please introduce yourselves and 
then make a brief opening statement. Mr. Eggers, if you would 
begin please.

 STATEMENT OF JEFFREY W. EGGERS, SENIOR FELLOW, INTERNATIONAL 
            SECURITY PROGRAM, NEW AMERICA FOUNDATION

    Mr. Eggers. Thank you, Madam Chair and Ranking Member 
Nelson, and members of the committee. I appreciate the 
opportunity to testify on this important topic and I am honored 
to join my colleagues, Mike McNerney and Melissa Dalton.
    I am currently a senior fellow at New America. My testimony 
today is informed by my experience, first as an operational 
practitioner of security cooperation programs, more than 20 
years ago a strategic policy advisor on such programs at the 
institutional level, and most recently on my research on the 
efficacy of U.S. security assistance programs.
    Considerable media attention has shed important light on 
the costly failures of these types of programs, most 
importantly in Syria and Yemen. This scrutiny has not yet 
yielded any significant debate towards reengineering a better 
solution. I welcome this subcommittee's attention to the 
important issue here today.
    The foundations of the modern security assistance system 
were, obviously, assembled amidst a time where the threat 
environment was moving more slowly. Despite the radical shift 
in the global security landscape since the turn of the century, 
these half-century-old building blocks remain the foundation of 
a modern system. Numerous attempts, of course, have been made 
in the last 15 years to update this paradigm to make it more 
responsive and agile to the current threat environment.
    Mostly this effort involved, as you have said, involved new 
title 10 authorities focused on building partner capacity to 
address the perceived challenge of fragile and failing states, 
giving rise to sub-state transnational threats. It is this 
effort that has largely in my view and in my research proven 
ineffective.
    The first problem is that the framework has become a 
cumbersome ``patchwork,'' as you have said, of authorities atop 
this outdated foundation, which I suspect my colleagues are 
going to speak to.
    The second problem is that building partner capacity as a 
means of buttressing fragile states has not been realistically 
implemented against the recipient nation dynamics. As a result, 
BPC programs have proven ineffective in fragile high threat 
environments where we attempt to accelerate the delivery of 
brand new capability.
    Yet, this is increasingly what we are seeking to do, 
principally because building partner capacity is seen as a 
preferred alternative to direct and unilateral U.S. 
intervention is more cost effective in a time of increasingly 
constrained defense budgets.
    A key lesson is that the effectiveness of security 
assistance is a function of U.S. intent. In cases where the 
programs seek to make gradual improvements to existing and 
mature capabilities, as was the case in Colombia and the 
Philippines, these programs have been more effective. In other 
instances where the assistance is employed to either buy access 
or influence, the track record is mixed in this more modest and 
transactional mode. However, efforts to literally build new 
capability in high-risk theaters with political instability 
have largely been ineffective.
    There are four basic types of difficulties behind these 
challenge programs. One, security capability is being developed 
ahead of or in the absence of civilian governance and rule of 
law infrastructure. Two, tactical capability development 
precedes institutional, logistical and financial support to 
sustain those programs for the long term. Three, program 
planning does not adequately account for political will, 
corruption, or the intent to use a capability. Four, programs 
are too ambitious, as I have said, in that they seek to build 
new capabilities where they do not exist rather than reinforce 
existing capabilities.
    Of course, a related overarching concern is the lack of a 
coordinated U.S. Government strategy for security sector 
assistance. Aside from broad guidance, there is no detailed, 
top-down strategy as to why the current array of programs and 
activities is structured the way it is. Rather, the array of 
programs is generally the result of a bottom-up process driven 
by country teams and regional leadership.
    Notwithstanding the lack of a global strategy, strategic 
level oversight of security sector assistance is further made 
difficult due to a lack of a centralized and standardized way 
of cataloging programs and expenditures.
    To close, a few thoughts on ways this important aspect of 
our national security strategy might be improved.
    First and as a strategic matter, we could be a bit more 
humble about our ability to create new security capabilities in 
an expedited manner in politically weak environments and in the 
absence of civilian institutions.
    Second, programming should be vetted at the front end 
against an enhanced framework of selected feasibility criteria 
to include political will, corruption, absorptive capacity, 
sustainability, and so on
    Third, we should look to leverage joint authorities to 
enhance longer-term stabilization approaches focused on 
governance and rule of law efforts.
    Fourth, we should anticipate that the expansion of security 
sector assistance will increasingly pit Leahy Amendment 
requirements against human rights concerns and update those 
requirements accordingly to manage this expansion.
    Finally, it will be important to follow through on the 
Fiscal Year 2016 NDAA requirement to develop a global strategic 
framework of U.S. security sector assistance.
    Madam Chair, I greatly appreciate the opportunity to offer 
this testimony today. None of this is to suggest that security 
sector assistance should be abandoned in favor of greater 
unilateral engagement. It is simply to suggest that we need to 
be more prudent and judicious with expectations of what these 
programs can and cannot achieve.
    I hope my testimony serves useful, and I look forward to 
assisting the committee in any way possible in the future. 
Thank you.
    [The prepared statement of Mr. Eggers follows:]
    
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
    
      
    Senator Fischer. Thank you, sir.
    Ma'am?

  STATEMENT OF MELISSA G. DALTON, FELLOW AND CHIEF OF STAFF, 
   INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Ms. Dalton. Chairman Fischer, Ranking Member Nelson, and 
distinguished members of the subcommittee. I am honored to 
testify before you today.
    My name is Melissa Dalton. I am a fellow and the Chief of 
Staff of the International Security Program at the Center for 
Strategic and International Studies.
    Security cooperation is central to meeting the challenges 
of the 21st century, which heightens the imperative of 
planning, managing, and resourcing security cooperation 
effectively. I will focus my remarks on three topics: applying 
resources strategically, measuring effectiveness, and balancing 
activities for a coherent program.
    First, applying resources strategically. While we should 
strive for streamlining security cooperation authorities, we 
should also be cognizant of how the changing security 
environment may require new approaches. The United States faces 
an increasingly complex security environment with interlinking 
challenges from China, Russia, Iran, and North Korea to 
transnational threats including the Islamic State and al Qaeda 
and their affiliates, as well as cyber. These include hybrid or 
gray zone security challenges with a range of state and non-
state actors in play.
    With this level of complexity and a declining defense 
budget, the United States must leverage its relationships with 
partners in support of shared interests. I offer five 
legislative recommendations for Congress.
    First, consider a new legal authority to permit title 10 
security cooperation partnerships with non-state actors, in 
coordination with the Department of State, to give the 
President and the Department more options for addressing hybrid 
challenges.
    The default is to use title 50 authorities and funding in 
these situations. However, Washington may want to publicly 
highlight partnerships with non-state entities for strategic 
purposes or link those partnerships to military activities. 
Through our title 10 authority, we might create more options 
for decision-makers. An assessment, monitoring, and evaluation 
framework could help mitigate the risks of partnerships with 
non-state actors with established off-ramps for turning the 
assistance off if the program objectives are not met.
    The second recommendation. Congress should consider 
requiring acquisition and delivery systems to be more 
responsive to crisis requirements. The Department has the 
authorities it needs to rapidly inject security cooperation to 
partners in crisis response situations. However, acquisition 
and delivery systems are often slow to prioritize emerging 
requirements and may not have the appropriate manpower to staff 
these requirements, resulting in delays that present 
operational risks.
    Third, Congress should consider evaluating the risks and 
benefits of creating a transfer authority between the 
Department and USAID [United States Agency for International 
Development] to enable, where appropriate, DOD to transfer 
funds to USAID. Such a mechanism could help combatant commands 
better link counter terrorism efforts to USAID countering 
violent extremism prevention programs.
    Fourth, Congress should specify roles for the Military 
Services such as organizing and allocating personnel for 
security cooperation activities. Currently, the services de-
prioritize security cooperation in resource allocation 
decisions because the operational benefits are not clearly 
defined. Moreover, there is no security cooperation career 
track for military personnel.
    Fifth, the Congress should consider streamlining the Office 
of the Secretary of Defense by, A, moving program management of 
security cooperation to the Defense Security Cooperation Agency 
under the oversight of the Under Secretary of Defense for 
Policy, and B, consolidating all policy oversight of security 
cooperation programs, including counterterrorism and 
counternarcotics partnership programs to a single OSD [the 
Office of the Secretary of Defense] policy office.
    The Department should take two steps in this area. First, 
enact the security sector reform called for in Presidential 
Policy Directive 23 to strengthen the linkage between U.S. 
priorities and security cooperation investments. It should also 
tighten the alignment from the defense strategy and the 
guidance for the employment of the force to theater campaign 
plans and specific security cooperation activities.
    The second topic I would like to address today is measuring 
effectiveness. The Department lacks a system to assess, 
monitor, and evaluate the performance of its security 
cooperation efforts. Congress should, therefore, consider 
tasking OSD to develop a framework for assessment, monitoring, 
and evaluation in coordination with the Department of State. 
This should include a rigorous front-end assessment by DOD, 
State, and the intelligence community of how security 
cooperation will affect a partner country beyond the discrete 
military contact.
    Congress should also consider requiring combatant commands 
to conduct programmatic assessment, monitoring, and evaluation 
for security cooperation within the parameters of the policy 
framework.
    The third and final topic I would like to address today is 
balancing activities for a coherent program. Current DOD policy 
is to create a comprehensive package of security cooperation 
for partners, including institution-building and sustainment. 
Yet, in practice, U.S. political imperatives and operational 
demands, as well as partner preferences and challenges, often 
hinder implementation of a coherent and enduring program.
    The DOD directive on defense institution building is a 
promising start to orienting security cooperation efforts for a 
more balanced and enduring approach. However, we should 
moderate expectations for improvement to account for long-term 
effects that are rarely evident in the short term.
    To achieve a better balance of security cooperation 
activities, Congress should consider requiring DOD to define 
the outcome, not just the objectives, for security cooperation 
programs when providing congressional notification and explain 
how a range of tools, including institution-building, will help 
achieve that outcome.
    In conclusion, the United States faces a daunting array of 
security challenges in the 21st century that only a network of 
partners can address together. The Department continually 
reaches for security cooperation to address challenges, but 
does not give it the investments in training personnel and 
policy to sustain and strategically employ it as it does for 
its hard power tools. Applying resources based on priorities, 
measuring effectiveness, and balancing activities for a 
coherent program will enable the United States to better employ 
security cooperation as a strategic tool of national power.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Dalton follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
    
    Senator Fischer. Thank you.
    Sir?

     STATEMENT OF MICHAEL J. McNERNEY, ASSOCIATE DIRECTOR, 
    INTERNATIONAL SECURITY AND DEFENSE POLICY CENTER, RAND 
                          CORPORATION

    Mr. McNerney. Chairman Fischer, Ranking Member Nelson, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on the important topic of security 
cooperation.
    I am Michael McNerney from the RAND Corporation. It is a 
pleasure to appear before you along with my colleagues, Jeff 
Eggers and Melissa Dalton.
    Today I will focus on three questions. First, how does the 
Department of Defense prioritize its security cooperation 
investments? Second, how does DOD manage the current patchwork 
of relevant legislative authorities? Third, how can DOD and 
Congress better evaluate the effectiveness of these activities?
    Regarding prioritization, let us start with a few numbers. 
DOD conducts about 3,000 to 4,000 security cooperation events 
per year in more than 130 countries. Total U.S. assistance to 
foreign militaries and police forces runs between $15 billion 
and $20 billion a year, about $10 billion of which comes from 
DOD.
    What is the bang for the buck? A recent RAND study found 
U.S. investments in security cooperation were associated with 
reduced fragility around the world. This link, however, is 
strongly connected with certain types of countries, less 
autocratic, less fragile, and with certain types of tools, 
namely those tools that focus on building human capital and 
institutions.
    Resilient partners are the best defense against terrorism 
and other threats, and resilience comes from strong 
institutions and professional security forces. Some of the most 
important tools for building resilient partners reside outside 
DOD, for example, with the Department of State and the U.S. 
Agency for International Development.
    Let me mention two recommendations relevant to 
prioritization.
    First, Congress might consider ways to encourage DOD to 
more clearly prioritize partner countries and investment 
tradeoffs and to more consistently prioritize activities that 
strengthen a partner's institutions and the professionalization 
of their security forces.
    Second, Congress might consider ways to support DOD, State 
Department, and USAID unity of effort. For example, could DOD 
be authorized to transfer funds to USAID if a military 
commander needs USAID's support in preventing violent 
extremism?
    Regarding authorities, last week, RAND released a report 
analyzing legislative authorities for security cooperation. 
Based on our research and on the focused discussions we had 
with stakeholders in Congress and in DOD, we created a 
framework to organize 106 title 10 authorities into several 
categories. We identified opportunities for reducing these 
authorities by 15 percent from 106 to 91. We also found 
opportunities to revise and add authorities to improve 
flexibility, for example, in the areas of cyber and ballistic 
missile defense.
    Two recommendations on authorities.
    First, Congress, working with DOD, might consider RAND's 
proposals for consolidating, revising, and adding title 10 
security cooperation authorities. Doing so would likely 
increase operational effectiveness on the ground while 
maintaining robust congressional oversight.
    Second, Congress might consider a follow-on step to analyze 
how DOD and Department of State authorities can be better 
integrated.
    The third major challenge I see in security cooperation is 
how DOD and Congress can better evaluate effectiveness, what is 
working and what is not. Understanding effectiveness starts 
with smart objectives, specific, measurable, achievable, 
results-oriented, and time-bound. With smart objectives as the 
foundation, the next step is building a comprehensive system 
for what is called AM&E, assessments of partner capabilities 
and will, monitoring of performance, and evaluations of 
effectiveness.
    RAND is working with DOD to help it apply lessons from 
various organizations like the State Department, USAID, World 
Bank, Millennium Challenge Corporation, and working with them 
to create a framework for managing AM&E more effectively.
    Looking ahead to when DOD provides its strategic framework 
for security cooperation this spring, a key question for 
Congress might be how DOD's AM&E system will improve 
congressional oversight, particularly through prioritized, 
analysis-based evaluations.
    Chairman Fischer, Ranking Member Nelson, members of the 
subcommittee, I appreciate the time to offer this testimony. I 
look forward to helping the committee with its vital work.
    [The prepared statement of Mr. McNerney follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
    
    
      
    Senator Fischer. Thank you all. I appreciate your opening 
statements.
    The ranking member has to leave shortly, so I will defer 
and have Senator Nelson begin the questioning.
    Senator Nelson. Thank you for the courtesy, Madam Chairman.
    Ms. Dalton, you talked about assistance to non-state 
actors. Tell us.
    Ms. Dalton. Thank you, Ranking Member Nelson.
    What I am talking about is in the 21st century, the United 
States faces considerable challenges from potential adversaries 
that are leveraging non-state actors. If you think of China's 
activities in the South China Sea, using Coast Guard and 
commercial shipping assets, if you think about Russia's 
activities in Europe, little green men, political subversion, 
leveraging non-state capabilities, and Iran has a long history 
of leveraging non-state actors in the Middle East.
    The fact of the matter is the 21st century security 
landscape is incredibly diffuse with power distributed across 
state and non-state boundaries. For the United States to remain 
competitive in that space with its potential adversaries, I 
think we need to get creative about who we are partnering with. 
That might require us thinking through whether we have the 
right authorities to conduct military activities in various 
parts of the world.
    As I mentioned, there are currently mechanisms in other 
parts of the Government that allow for that, but there may be 
an argument for considering a more public approach to highlight 
the partnerships that we might strike with non-state actors. We 
have also done this in sort of an ad hoc manner in places like 
Syria, support for the Kurds. The question is do we need a more 
systematic approach, given the evolution of the strategic 
landscape that does not seem to be faltering at this time.
    Senator Nelson. Before I leave, I need to get to another 
question, but I would like a brief comment from the other two 
of you about this.
    Mr. Eggers. Thank you, Senator.
    Senator Nelson. Brief.
    Mr. Eggers. Ms. Dalton has put her finger on an important 
problem. Libya and Syria exemplify the multi-dimensional 
conflicts we face where it is not clear that the sub-state 
enemy of our enemy is our friend. It is clearly not so simple 
in the case of Al-Nusra and the even wider factualization in 
Libya.
    However, I am also not sure that it is necessarily right to 
formalize vehicles for such type of support, but I do think it 
would be better to bring some mechanism and some discipline so 
that it does not sit entirely within title 50. There are pretty 
good lessons of where that has gone. It has been successful, 
but long-term unintended consequences need to be watched.
    Senator Nelson. The gentleman from RAND.
    Mr. McNerney. Thank you, Senator.
    I agree it could be a helpful approach, but it would have 
to be monitored pretty carefully. I do think title 10 can bring 
a more open approach, and not everything working with non-state 
actors has to be clandestine or covert. Why not have a more 
open approach to non-state actors if we do not need to operate 
in a covert manner with them?
    Senator Nelson. Let us go to Eastern Europe. How important 
is it to our Eastern European allies that there are training 
opportunities and exercises basically for their capability, as 
well as reassurance? Anybody.
    Mr. McNerney. I will go first.
    The research I talked about showed less autocratic, more 
stable countries seem to be able to use security cooperation 
assistance better, and Eastern Europe countries are in general 
a very good example of where I think the United States gets a 
good bang for the buck.
    Senator Nelson. All right. We send U.S. Forces there. They 
train or conduct exercises with those allies, and they do it in 
multilateral settings. Everybody agree with that? Okay.
    Now, what about Ukraine? We are concerned in building 
partner capacity. We are focused on addressing the 
institutional problems of corruption and flawed management, and 
yet we have to help them build better tactical skills. Do you 
want to comment on that?
    Mr. Eggers. I think the example of Ukraine is, as Mr. 
McNerney said, a good bang for the buck example where there is 
a high return on investment because the new threats of the 21st 
century are in, as Ms. Dalton said, these gray areas where the 
20th century toolbox is not working. The one thing in that 
toolbox that can work in this paradigm is buttressing and, as 
you said, reassuring our support and commitment in these areas. 
The South China Sea is another great example of where there are 
fewer tools that we can use. This is an example where the old 
paradigm does meet the new wave of threats in my view.
    Senator Nelson. I am only 30 seconds over.
    Senator Fischer. Not bad. Thank you, Senator Nelson.
    I would like to ask you just some basic questions about 
these programs. As you know, we are looking at different 
reforms in moving forward as a committee. I kind of want to do 
a broad view of these programs. Any of you that would like to 
respond to the questions, it would be fine.
    Do you believe that our current structure of security 
cooperation authorities allows the Department to effectively 
being able to marry the strategic policy with appropriate 
operations and resources? If not, where do you think this 
process breaks down?
    Mr. McNerney. I would say the authorities are not the 
biggest problem in terms of the breakdown, but they could be 
made clearer, more consolidated to make it a little bit clearer 
for those on the ground to understand what they can and cannot 
do. In our report, we have got some what we call low-hanging 
fruit options that are very easy to consolidate and a few new 
ideas for authorities to enable the men and women who are 
working so hard on the ground to do this to feel confident 
that, yes, I can work with this partner to strengthen their 
cyber capabilities and I am not going to get shut down by a 
Pentagon lawyer a month later. Yes, there is room for 
improvements in that regard.
    The bigger problem is often in the guidance that flows then 
down from the Pentagon and the need for the people on the 
ground to understand what is expected of them and for them to 
communicate with the partner how this is going to work. That is 
where we usually have more problems.
    Senator Fischer. As we have seen the growth in threats, we 
also see a growth in the security cooperation authorities. I 
talked about a patchwork and just the vast number of 
authorities that are out there. I believe it was you, Ms. 
Dalton, who spoke about being able to combine some of them. How 
do you think that would impact our efforts, though, in moving 
forward? Are we going to be able to save some time and 
resources by consolidating some of these authorities, making it 
more time-sensitive in many ways as well? Again, any of you 
feel free to answer.
    Ms. Dalton. Yes, Madam Chairman. I do think that doing some 
streamlining of authorities would simplify the choices that 
decision-makers and practitioners have to make when faced with 
a challenge that seems to require some sort of security 
cooperation, and then opening the grand menu of 100 
authorities, it is quite a task.
    You know, there are folks in the security cooperation 
enterprise that have years of experience that are in pockets in 
different offices. Oftentimes you have embassies staffed with 
security cooperation officials that are very well intended, 
have significant operational background, but do not have the 
training on how to do security cooperation. They have had a 2-
week crash course on what the security cooperation authorities 
are, but have not had a career of looking at this issue set and 
so are often somewhat scrambling in a way to define what the 
appropriate mix of tools is correct for a particular 
application.
    Senator Fischer. As they are attempting to navigate through 
this process, how much time is wasted? How much of our 
resources are wasted? Do you have any way to gauge that? A lot, 
a little?
    Mr. Eggers. Madam Chair, my guess is that the has evolved 
to the complexity of the framework, and so people are now 
holding essentially doctorates in how to patch together these 
160 authorities to get what they need to do done. Making it 
consolidated and more streamlined would probably lower the bars 
to entry for becoming an expert planner, and these people have 
an immense amount of experience and knowledge to be able to 
work with this patchwork. I am not sure it would save time. I 
think it would lower the bar to entry so that it would be more 
accessible and more easily trained. Again, I do not think it is 
one of the strategic variables impacting the effectiveness of 
the overall process.
    Mr. McNerney. I would think about opportunity costs also. 
Sometimes the person at the embassy working with the partner 
directly--they will not waste a lot of time. They will just 
say, well, I do not understand this, so I am going to do what 
my predecessor did, or I am going to do what we did last year 
because it is easy and I know it will get approved. Sometimes 
it can still be implemented quickly, but it might not be the 
most effective approach.
    Senator Fischer. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Madam Chair and members of the 
committee. Thanks to the witnesses for being here.
    I will start with the positive, then questions and 
concerns.
    I have been a huge fan of security assistance programs. I 
have seen our special forces working together with the Lebanese 
army and thanked profusely for the commitment of our country to 
their special forces training. We have special purpose Marine 
air-ground task force training units in Africa doing a lot of 
work with a lot of the different countries there. They are both 
helping countries tackle their challenges, they are building 
good relations between the United States and those countries. A 
lot of the work is done in areas that have been identified as 
near or adjacent to high-threat embassy posts so that if we 
were ever to need to do something quickly at a high-threat U.S. 
embassy, we would have the working relationships there to 
enable us to do it. There are a lot of reasons for these 
investments.
    Then finally, the work that we have done in security 
cooperation with Colombia has really been remarkable in the 
last 15 years. Now you see Colombians that we have trained in 
Central America helping the northern triangle countries deal 
with their violence. You see them in the Sinai as part of the 
multinational force observers guarding the border between Egypt 
and Israel. We have trained them well enough that they are 
going out and providing stability elsewhere, which is 
fantastic.
    I generally am a fan, but I am really glad that the 
chairwoman called this hearing because I think there are 
potentials for confusion and overlap and how do you rationalize 
all this.
    We had a hearing in January in the Readiness Subcommittee--
I think Senator Ernst was part of it--where we were looking a 
tug of war between basically DOD and USAID over the DOD Task 
Force for Business and Stability Operations, which led to a lot 
of kind of shocking headlines about over-expenditure on what 
would seem like USAID activity. Even though the witnesses were 
sort of making a case that some of the instances were not as 
bad as maybe they initially appeared, they did concede 
actually, when they looked at it, it would be better for USAID 
to do this kind of work than DOD. That was a helpful concession 
that they made in connection with the hearing.
    I sort of am curious to have you talk really about two 
things--if we are working with other nations to help them on 
security, the purpose is great--how to coordinate better 
between what DOD provides and what State or USAID provide 
first.
    Then second--and you touched on this a little bit in your 
testimony--the whole question of measuring effect. It is like 
what are the goals you set out in advance and then how do you 
measure their effectiveness. The 160 different authorities not 
only makes it hard to plan, but it makes it hard for us to 
exercise oversight if the authorities are also very different. 
That is something we ought to be doing to measure the 
effectiveness of this $10 billion annual investment.
    If you could talk about either effectiveness or 
coordinating among the different participating U.S. agencies.
    Mr. Eggers. Thank you, Senator. I will take the first one.
    One of the bright spots in the evolution of authorities, 
the expansion of title 10 authorities and so forth, the 
innovation since 9/11 in these types of authorities that I 
found that people were relatively pleased with were the 
utilization of joint authorities and getting away from the old 
mechanism where it was really one or the other and there was 
either a coordination consultation requirement, which since 
they were not well defined, could create tensions and lack of 
coordination between the agencies. There was a fair amount of 
consensus that the innovation of using a joint mechanism for 
these types of authorities, while it obviously requires more 
work because two agencies have to come together, it also steps 
around a lot of the tension that was built up in the older 
model.
    I would defer the effectiveness question to my colleagues.
    Ms. Dalton. Thank you for that question, Senator.
    In regards to coordination between the Department and its 
interagency partners, the Presidential Policy Directive 23 
calls for the creation of integrated country strategies that 
would originate in the embassies, and so it would involve all 
various members of the country teams, State, USAID, DOD, and 
others collaborating to synchronize objectives and priorities 
and activities in that strategy. Then that, in theory, is 
supposed to come back up to Washington to have the policy 
oversight of that.
    The trick then is also feeding that into the theater 
campaign plan development. That linkage would need to happen in 
DOD, particularly in OSD and the Joint Staff.
    There is interagency work afoot to try to address that, but 
I think we are not quite there yet.
    To the point of measuring effectiveness, I completely agree 
that the 100 authorities that we would have to measure 
effectiveness against would be quite a daunting task. Being 
able to streamline the authorities with--you know, in part one 
of the objectives of enhancing our ability to measure 
effectiveness would be quite significant in both creating a 
policy framework, how do you create parameters for the 
framework around the authorities that you are going to measure, 
as well as the burden on the combatant commanders to do 
programmatic evaluation of security cooperation. If you kind of 
narrow the number of things that people have to look at, surely 
there are efficiencies to be made.
    Senator Fischer. Thank you, Senator Kaine.
    Senator Cotton?
    Senator Cotton. Thank you.
    Mr. McNerney, you stressed in your written testimony the 
importance of prioritization. Oftentimes when I hear a 
conversation about security assistance and security cooperation 
programs, it is focused on the Middle East where we have been 
for a long time and countries in Africa that need some very 
basic capability-building, you know, police forces, shoot, 
move, communicate at the small unit tactic level. Then you look 
in places like Southeast Asia where we deal with very advanced 
militaries that still need assistance with maritime security 
especially towards China and their aggressive actions in the 
South China Sea.
    Could you say a little bit about the qualitative 
differences in security assistance across the main regions 
where we are engaged, East and Southeast Asia, the Middle East, 
and Europe, and how we might think about prioritizing those 
efforts?
    Mr. McNerney. Thanks, Senator Cotton.
    I think you are exactly right that for every region the 
assistance really needs to be tailored, and even every country 
has a great variety.
    I think the way to think about tailoring, though, is to 
start with the same fundamental tools. Institution-building is 
relevant in all regions. It is just done in a different way. In 
Europe, for instance, we work with institutions on a more peer 
basis to share classified information in a more efficient way, 
almost the way the U.S. works within the interagency. State and 
DOD have trouble talking to each other. The United States and 
the U.K. might have similar challenges working across agencies. 
We work at the institutional level in a very sophisticated way. 
It is important to reinforce that.
    Whereas, in the Middle East, we are not as close because we 
do not have a NATO [North Atlantic Treaty Organization] 
alliance equivalent. The cooperation is not as sophisticated, 
and yet there needs to be an ability to work with those 
partners and try to align our values and our interests over 
time. That is a really long game, but it is well worth the 
investment. There it is less about sharing some top secret 
piece of information today. It is more about how can we become 
closer over the next 20 years.
    In Southeast Asia, it is helping them develop the 
institutions. Often it is pushing on an open door where 
countries are already working to strengthen institutions, and 
we can build on that, and it is basically putting seed in 
fertile ground, whereas in Africa, you might get more 
resistance.
    In all cases, the tools are important. You just have to 
apply them in different ways. To save time, I will not go 
through train and equip or professional military education, but 
it is the same way of thinking for each of those.
    Senator Cotton. Ms. Dalton, would you care to add anything? 
It was a CSIS [Center for Strategic and International Studies] 
report recently on the Asia-Pacific rebalance that talked about 
the need for more maritime security cooperation in the South 
China Sea.
    Ms. Dalton. Yes. That was combined effort from my office 
and the Asia team, and that was absolutely highlighted as a 
priority for investment on the part of the Department going 
forward, including the creation of a joint operational center 
to synchronize maritime security activities and enhance 
investments in undersea warfare, electronic warfare, and ISR 
[intelligence surveillance reconnaisance], among other 
capabilities. From our perspective, that is certainly a 
priority for investment going forward for the Department.
    Senator Cotton. I am going to throw this out for all three 
witnesses because I am not sure which has the best perspective. 
Feel free to claim the jump ball.
    In our country when we think about authorities, we have a 
pretty sharp distinction between title 10 and title 50. Suffice 
it to say those authorities and that distinction is not as 
clear cut among our adversaries and among many of our allies. 
If you look at some of the challenges that countries on 
Russia's periphery face, they certainly face something that we 
might consider closer to a title 50 authority challenge than a 
traditional military challenge, even though those lines are not 
as clear. Russia has a larger intelligence budget for instance 
than the entire government budget of Estonia and Latvia.
    Is that something that we need to address as a government, 
the fact that we have a very bright line between those two 
authorities but allies, countries who need capacity- and 
capability-building do not have such a bright line?
    Ms. Dalton. Senator, as I mentioned in my opening remarks, 
I do think that we need to take a look at how we approach this 
issue of hybrid warfare and gray zones because there is a 
difference, as you note, between how our adversaries approach 
these issues and how they are task organized to address them, 
and then the clear distinctions on our side.
    Certainly we need to be very careful in approaching that. 
There are very good reasons why we have those distinctions. We 
are a democracy. We want to have that civ-mil distinction and 
have a clear distinction between our intelligence and our 
military activities.
    As I mentioned earlier, I do think that in order to remain 
competitive in this space, that it requires some creative 
thinking on our part in terms of how we organize and how we 
approach these problem sets, which may have implications for 
our authorities.
    Senator Cotton. Mr. Eggers, Mr. McNerney?
    Mr. Eggers. I would agree with Ms. Dalton. I think it is 
right to identify these areas as a need for focus, but really 
the first place to invest would be targeting these areas with 
greater priority with the tools that we have, as is being done 
with the Eastern Europe reassurance and South China Sea and so 
forth, before we need to get to engineering kind of new 
authorities that kind of go with what Putin and the Russians 
are doing. I think there is probably more that could be done, 
but I think it is right to focus on this as a problem area.
    Senator Cotton. Thank you.
    Senator Fischer. Thank you, Senator Cotton.
    Senator Ernst?
    Senator Ernst. Thank you, Madam Chair.
    Thank you to the witnesses today for being here. It is an 
interesting discussion.
    I am going to go back a little bit. Senator Cotton had 
mentioned the Middle East and the South China Sea. If we can go 
back to the Middle East a little bit, as we talk about 
measurements and what is working and what is not working, Mr. 
McNerney, if you can set the stage for us.
    Right now if we focus on the Middle East, in particular, in 
Iraq, developing a Sunni fighting force is really key to 
defeating ISIS [the Islamic State of Iraq and Syria] in Iraq, 
and holding and building in Sunni areas that ISIS has 
destroyed, that is very important. It does not seem like we 
have had much emphasis coming from the Iraqi Government on 
actually developing that Sunni force. Now we have a Shia force 
that is rivaling the Iraqi Security Forces in that area and 
outside of Baghdad.
    If you could set the stage for us on why it is taking so 
long for the Iraqis to develop a Sunni fighting force and maybe 
any influences in that. Then I would like to move on to Ms. 
Dalton and talk about being creative and tailoring some of 
these programs that exist to retool and do better. If you could 
set the stage for us, please, Mr. McNerney.
    Mr. McNerney. Thank you, Senator Ernst.
    I think the Middle East is obviously the greatest challenge 
of all in the security cooperation realm, and I think where the 
Department could do better is in presenting expected outcomes 
and risk. What we usually get is hoped-for outcomes when we get 
assessments. If there was a little more sort of skeptical 
assessment of what will come out of efforts, I think it then 
allows Congress to maybe make better judgments about what the 
investments are gong to do.
    Again, I would reiterate that that is a really long game in 
the Middle East. The investments really have to be balanced 
between long-term and short-term goals. At times in Iraq, being 
a great case, we were very short-term focused during the effort 
to withdraw and getting to certain levels of troops at a 
certain readiness standard and may not have done as good a job 
thinking about the political frameworks and the sort of 
institutional piece of that. We do not want to make the same 
mistake now. Of course, you cannot force a sovereign nation to 
take action, but we have a lot of tools to encourage ways of 
doing business that we need to have a more open dialogue about, 
including here on the Hill.
    Senator Ernst. Certainly. Do you see other governmental 
forces, particularly Iranian forces--are they having an 
influence in that in why we are not able to see greater Sunni 
participation?
    Mr. McNerney. Well, absolutely. Iran as a next door 
neighbor and having a relationship with the government 
absolutely has influence there as well. I always say that the 
United States does not have much leverage, but we have 
tremendous influence. By leverage, I think of a transactional 
you need to do X or else we will withdraw funding. That does 
not work very well. Both countries, Iran and the United States, 
have influence but it is a much more subtle sort of soft power 
way of thinking, and we need to try to think about how to use 
tools that help in that regard.
    Senator Ernst. Well, okay. Now we have got the stage set 
with some of the issues that we have and the influences that we 
have.
    Now, Ms. Dalton, can you take that stage and further 
develop it, retooling the way we think about the situation and 
the other types of assistance or cooperation that we can 
utilize in that area to do a better job? Can you maybe give us 
an idea what you think perhaps could work in that area?
    Ms. Dalton. Thank you for the question, Senator.
    I do think that this is one of the areas where this concept 
of greater engagement with non-state actors could be helpful. 
We had this one-off example of the Awakening in Iraq in 2007-
2008 where we provided assistance to the tribes at a local 
level and that helped turn the tide. That for a variety of 
reasons did not work over the long term. I think that that is 
the big lesson learned there, that there are cases in the past 
where we have ad hoc assisted non-state actors in places in the 
Middle East, but then connecting that to a broader political 
framework such that it is a sustainable solution such that if 
we empower the tribes and they set up their expectations in 
terms of their role in the future of Iraq, that there is some 
answer at the end of that for them. I think we did not close 
the circle on that last time. If we are to step our engagement 
with the tribes this time, that is something that we should 
definitely look to do better on.
    Senator Ernst. Thank you, Ms. Dalton.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Ernst.
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Madam Chairwoman.
    The international partners who are a focus of our security 
assistance efforts have a wide range of financial means. Saudi 
Arabia, for example, a vastly wealthy state, is capable of 
funding most of the capacity-building arrangements it has with 
the United States. Other strategically important partners like 
Jordan are much more dependent on United States financial 
assistance to sustain such activities.
    When a partner nation commits its own resources towards 
paying for U.S. security assistance, does that influence its 
efficacy and outcome? When partner nations are not able to 
bankroll the assistance the U.S. provides, what reasons justify 
or which metrics should be met to determine whether the U.S. 
supports that relationship financially?
    Mr. McNerney. I have always been of the mind that even the 
partners with the least resources need to have some buy-in, and 
we always say you cannot want it more than they do. Even a 
partner who is really strapped for resources--they need to buy 
into sustainment, maintenance over time, and at least providing 
trained personnel who are going to stay with the equipment or 
other assistance that we provide.
    On the other end of the coin, a country like Saudi Arabia--
I am definitely a heretic in this regard, but I think the 
United States should be willing to even fund Saudi Arabian 
participation in certain events if the United States feels like 
it will not come otherwise and it is really important for us to 
have them there. The U.K. actually does that. Sometimes the 
U.K. will say we are doing an event on something to do with 
professionalization and we want everyone to come and we will 
just pay for everyone. Of course, we do not do that for sound 
financial reasons, but there may be times we want to make 
exceptions to that rule.
    Senator Gillibrand. Anyone else?
    Ms. Dalton. Senator, thanks for the question.
    I would just also add to Mike's great comments that there 
is also a difference in leverage, as Mike noted earlier, being 
a factor in security cooperation relationships. That has an 
impact as you look to measuring effectiveness and the 
identification of what outcomes we are trying to achieve. If 
our partner has more of a say in terms of the dollar amount 
that they can commit to their security investments, that 
arguably puts us on a different playing field with them in 
terms of leverage.
    If there is a difference in the outcomes that we want to 
achieve, it perhaps is harder for us to square those different 
outcomes. If there is a partner that is more dependent on us 
for resources, arguably we may have a bit more leverage. Any 
differences in objectives and outcomes might be more easily 
bridged, I would venture.
    Senator Gillibrand. Related. Since 2001, the United States 
has spent more than $100 billion on programs to build partner 
capacity in weak states like Iraq, Syria, and Afghanistan, all 
producing limited degrees of success. What metrics are used to 
determine the efficacy of capacity-building programs there, and 
what might be better indicators of success?
    Mr. Eggers. Senator, I think metrics I will leave to my 
colleague, Mr. McNerney, to address.
    One of the things that I have advocated before is before we 
even get to the question of measuring the effectiveness of the 
program, vetting the feasibility of the program on the front 
end. I think it is going to be always difficult to really find 
concrete and quantitative metrics, even when these programs are 
well implemented and appear to be creating good results. I 
think it is always going to be difficult. I think it is easier 
to come up with principles for which these types of programs 
should be applied and where we think we are going to get a 
reasonable return on investment and focus on applying that on 
the front end.
    Mr. McNerney. Maybe I could just add something about the 
way USAID creates its metrics. They work on what is called 
project design, and they have a theory of change. They have a 
very sophisticated way of thinking about where they want the 
partner to be over time and creating milestones to get there.
    DOD does that sometimes but in a more informal way, and it 
is not clear to me DOD always engages with the partner as early 
in the process as, say, AID does. I always say sometimes they 
bake the cake and give it to the partner and say, you can put 
the icing on it, whereas it is better to be right in there with 
the eggs and the flour and the sugar with the partner right 
away, and that often comes out with better measures right up 
front.
    Senator Gillibrand. Do you consider the money we spend with 
regard to Pakistan to be one of those partnerships or not?
    Mr. Eggers. Senator, I put that in the category of security 
cooperation that is buying us influence and access.
    Senator Gillibrand. Because we do not have any control 
where the money goes, and we have zero oversight and zero 
accountability.
    Mr. Eggers. Pakistan is not alone in that regard.
    I think there is a pretty clear acknowledgement that even 
where we are buying capability, it is going to have, at best, a 
mixed use, and the Pakistani intentions for those are not 
generally going to align with where we would want to see them 
go. In fact, in most cases, we are pretty sure they do not. 
They have been at least kind of ostensibly effective in 
maintaining a relationship that gave us access, for instance, 
to supply lines in Afghanistan for the coalition.
    Senator Gillibrand. Do you think our investment has paid 
off?
    Mr. Eggers. In Pakistan?
    Senator Gillibrand. Yes.
    Mr. Eggers. I think it is hard to make those kinds of 
judgments because of the amounts of funding we are talking 
about are of kind of an almost unprecedented magnitude. They, 
of course, are small relative to the overall cost of the effort 
in Afghanistan, and they were instrumental. Without many of 
those supply lines through Pakistan, the war effort would not 
have been possible. It is really impossible to make a judgment 
of whether or not they were, quote, worth it. I think once we 
decided that this military effort and this style of engagement 
in Afghanistan was required, it was part of the cost of that.
    Senator Gillibrand. Thank you.
    Thanks, Madam Chairwoman.
    Senator Fischer. Thank you, Senator.
    Mr. McNerney, in your comments that you provided, you 
discuss the Syria train-and-equip program. You gave that as an 
example for the need for better monitoring, and you spoke about 
the need for an alert system that would notify us earlier on 
when a system, when a program was failing. How do you see that 
program operating in practice, if we have this early alert 
system?
    Mr. McNerney. Thank you, Senator.
    I think when a project is so high-profile and so high-risk, 
you need to have--and by alert system, it is not sort of a red 
phone type of system, but more of a way for leaders in the 
field to let leaders in Washington know that risk is growing or 
that they are seeing problems growing.
    Senator Fischer. Objectives would not be met on a schedule 
that hopefully had been preset?
    Mr. McNerney. Yes, ma'am.
    An example in Syria, of course, there is a startup cost 
when you are going to train a force. There is infrastructure. 
There is equipment that has to be brought in. Then you are 
hoping that the students will show up or the trainees will show 
up.
    Now, there should be a way to alert the system when you are 
starting to worry that maybe the trainees will not show up. I 
find it hard to believe that the U.S. spent as much money as it 
did and never had any sense that the trainees would not show 
up. There must have been that worry, and so that alert system 
is really about communicating risk and communicating it to 
Washington so that senior leaders in the Pentagon can come here 
and communicate it here.
    Senator Fischer. Would you recommend having a third party 
be involved in this, or do you believe it could be handled 
within the current system that we have?
    Mr. McNerney. I have never actually given that thought, but 
it is an interesting idea.
    I have thought about red teaming, so where you have like 
the CIA [Central Intelligence Agency] and others do where they 
have a skeptical group inside who plays devil's advocate. I 
think what you might be suggesting, ma'am, would be to have 
sort of a third party play that role, and I think there are 
groups within the U.S. that have better linkages to civil 
society in a country where we are working where they may have a 
better sense of the reality on the ground that the U.S. could 
leverage better. That may be a way to use a third party.
    Senator Fischer. Ms. Dalton or Mr. Eggers, do you have 
anything to add on that?
    Mr. Eggers. I would agree. I always advocate and endorse 
the idea of more objective assessors. I think anytime you are 
in the business of having people responsible for the 
development and implementation of programs, cognitive bias 
makes it difficult for them to view and assess those programs 
objectively.
    Ms. Dalton. Madam, I would just add to that that if we are 
going to be relying on, as I myself recommended, the combatant 
commanders to provide programmatic assessment, monitoring, and 
evaluation, that the COCOMs actually have the incentive to 
report back positively so that they may receive more resources. 
The idea of having a third party, some sort of red teaming, is 
probably wise.
    Senator Fischer. Thank you.
    Also, Mr. McNerney, in your opening statement, you 
suggested the need for a new authority to improve the 
multilateral engagement on missile defense. Could you elaborate 
on that?
    Mr. McNerney. Yes, ma'am. The U.S. has authorities or DOD 
has authorities to engage on a range of topics, but ballistic 
missile defense is one that has not been used in the past. 
Lawyers could be nervous to allow that topic to come in. In 
none of the authorities is there that sort of mission-based 
ability.
    Senator Fischer. We would not modify an existing authority. 
It would take creating a new one?
    Mr. McNerney. Yes, ma'am. In fact, that was the one case, 
the only case, where we found you could not easily revise an 
existing authority. It was the only one where we said you 
probably need a brand new authority. In the case of cyber, we 
thought there are cyber-related authorities. It is just a 
matter of sort of extending them in different ways. Maritime 
security--the same thing, but not missile defense.
    Senator Fischer. Would either of you have anything to add 
on that?
    [No response.]
    Senator Fischer. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Madam Chair.
    This is a great hearing, really important for us.
    This is a question that is going to be out of left field, 
but I just would be curious because you kind of represent the 
intellectual think tank community that looks big picture at 
some of these questions.
    The chairman of the committee, Senator McCain, is 
interested in having us this year possibly as part of the NDAA 
process tackle a Goldwater-Nichols type--you know, since 1986, 
look at the whole structure of the Pentagon, the Service 
Chiefs, the civilian secretaries, the COCOMs, kind of look at 
all that.
    It strikes me if you were looking at that in a world where 
you are not doing a lot of cooperation with other nations, you 
might set it up one way, but if you are looking at it in a 
world where this kind of cooperation is likely to be probably 
more frequent rather than less, you might set things up 
differently. For example, if the COCOMs are going to be in 
charge of these security cooperation instances or if you 
continue with the presidential executive order and you 
basically make everything hinge around the ambassador, you 
know, that all kind of fits into a structure.
    Would you have any general advice for us, as we approach 
the notion of Goldwater-Nichols reanalysis, about how to factor 
in the reality of these security cooperation agreements, which 
I think are only going to grow, how to fact that into looking 
at structural questions about the way we ought to organize our 
DOD mission?
    Mr. Eggers. Thank you, Senator.
    I had the opportunity to testify in one of the hearings in 
December on that question.
    As it relates to this topic, my sense is that the 
opportunities for reform on Goldwater-Nichols are not trivial. 
They are significant. Most of them have to do, at least in the 
hearings that I observed, with programmatics and acquisition on 
our side. I advocated for personnel reform in that same manner.
    I think as it pertains to this, the objective of maybe 
revisiting the relationship between the service secretaries and 
the Service Chiefs and the Secretary may not be as related to 
the question of whether COCOMs have the majority influence and 
the prerogative to shape the security cooperation and the 
theater security cooperation plans in their theaters. The 
current system, obviously, I think is advantageous to them in 
that way. I do not see the shifting the balance or the onus of 
ever shifting from being kind of a regional/theater approach to 
being one that is built more around services, if that makes 
sense. Admittedly, that is as much as I have thought about that 
very interesting question thus far.
    Senator Kaine. You do not see it shifting from kind of a 
regional-based strategy to a service-based strategy.
    Mr. Eggers. That is correct.
    Senator Kaine. Okay.
    Ms. Dalton. Senator, I think it is a great question.
    I think that one of the areas that we should collectively 
look at is this tightening of an alignment between the defense 
strategy, the guidance for the employment of the force, and 
theater campaign plans and who kind of orchestrates that and 
drives that to ensure that then connects to security 
cooperation activities. Right now it is a variety of actors 
that are involved in that process, and not everybody is 
necessarily on the same sheet of music. To be clearly be able 
to pull the thread through from prioritization to what COCOMs 
are executing on the ground when they conduct security 
cooperation activities I think could be tightened up perhaps in 
thinking through who is involved with planning, how that is 
driven, and what mechanisms are used. Certainly those are 
topics to be taken up in the defense reform conversation.
    Mr. McNerney. The only addition I would make, Senator, is 
maybe to dust off the Beyond Goldwater-Nichols reports that Jim 
Locher did a couple years ago. They are voluminous, but there 
are some interesting components in there that talk about not 
just DOD but how do you have a Goldwater-Nichols approach to 
interagency cooperation. There may be some useful ways to 
improve that.
    Senator Kaine. Thank you.
    Thanks, Madam Chair.
    Senator Fischer. Thank you, Senator Kaine.
    I would like to do one more question. I will let Senator 
Kaine stay and ask another one too, if we can.
    Mr. McNerney--or Mr. Eggers. I am sorry. In your opening 
statement, you noted that concern over the problem of excess, 
overlapping, or stovepiped authorities is not universally 
shared as some stakeholders find benefit in the patchwork as a 
means of securing dedicated resources.
    Can you elaborate more on the potential resistance to 
changing the current architecture of the authorities?
    Mr. Eggers. Thank you, Madam Chair, and you are not the 
first person who stopped on that finding and found that 
somewhat surprising.
    I myself was surprised in the course of doing research and 
interviews to hear people express anywhere from acquiescence to 
the status quo to resistance to consolidation.
    Senator Fischer. Does this go to the Ph.D.s you were 
speaking of earlier?
    Mr. Eggers. Some of them probably were doctors.
    Senator Fischer. I will let you continue. Go ahead.
    Mr. Eggers. I will give you two main reasons. One is that 
some people like the status quo because its patchwork nature is 
necessarily specific in places and it allocates resources to 
certain theaters or even specific and particular efforts. They 
are concerned that they would lose out in resourcing if there 
was a consolidation that lost that degree of specificity 
because they would not become a priority. Having a dedicated 
authority with the name of their issue or their region on it is 
beneficial to their securing resources.
    The second is one that was more particular to the State 
Department, which is that to the extent the proliferation of 
new authorities has been in title 10 and it has been to their 
perception something of an encroachment upon traditional State 
security assistance responsibilities, that the consolidation 
would formalize, institutionalize some of this, quote, 
encroachment. There was some sense of being cautious about 
consolidation for that reason, that we should be kind of slow 
and methodological in making sure that we do not kind of step 
past a certain kind of traditional boundary there.
    Senator Fischer. Thank you.
    Other comments? Do you have views that you would like to 
share?
    Mr. McNerney. I would just add that we found sunset clauses 
can often be very valuable because sometimes, as Mr. Eggers 
said, it can be helpful to shine a light on a particular 
mission that needs to be accomplished or a particular partner 
that is in dire straits, as you mentioned Ukraine. Then we 
should have a feeling for what is temporary and what is 
forever. The sunset clauses help keep people focused on the 
fact that this is a surge to focus on a particular problem and 
eventually things should go back to the normal process.
    Senator Fischer. Where resources could be allocated by 
conditions on the ground.
    Mr. McNerney. Yes, ma'am.
    Senator Fischer. Thank you.
    Senator Kaine, did you have any other questions?
    Senator Kaine. You know, I have got a ton, but maybe I will 
do one. Let us see. Which one will I choose? Maybe I will go to 
Ms. Dalton.
    You answered a question that Senator Ernst asked, and I 
wish she was here because I am going to reference her in 
another way too. She had a very interesting amendment on the 
table in the NDAA last year that I thought was one of the 
hardest votes I cast. I ended up not supporting the amendment, 
but it was around do we provide our arms directly to the Kurds 
in Iraq. You indicated that we may need to be open to do 
security cooperation with non-state actors. We really grappled 
with this as a policy matter.
    We are supporting one nation, Iraq. We have not yet said we 
support a devolved Iraq. The Kurds are--they have been our best 
fighters. There is a very, very good relationship between the 
Kurds and the United States. The Iraqi central government 
treatment of the Kurds, sometimes militias, sometimes maybe not 
militias but negligent in not paying oil revenue. There is a 
lot to complain about that.
    The debate was really about can we support a group like the 
Kurds that really have been good allies without undermining a 
policy if we want the central government to work. We really 
grappled with that. I still find that that was a tough one even 
looking in the rear view.
    If we were going to think about doing security cooperation 
with non-state or sort of lesser-than-state entities, what 
would your advice be to us about how we do that without 
weakening--because part of what we are trying to do with 
security cooperation is ultimately build up institutional 
capacity and strength. We do not want to do it in a way that 
will weaken institutions or more atomize a situation that is 
already too atomized. What would be some advice you could give 
us on the general topic?
    Ms. Dalton. It is a great question, Senator.
    I think that, as with all things, taking it on a case-by-
case basis and evaluating what the tradeoffs are in a 
particular instance. The example of the Kurds in Iraq and 
Syria--were we betting on the fact that they are the most 
capable militia that has proven in battle and that could create 
some space for us in that part of both countries and help push 
back against ISIS, but on the other hand, undermining the 
Government of Iraq, fraying relations with the Turks, a whole 
host of issues?
    I think in this broader question of should we be partnering 
more with non-state actors, it is really going to be a 
calculation of risks and tradeoffs to does it make sense to 
potentially empower that actor and then diminish the broader 
fabric of that country, or is the trajectory already such that 
the country is already fragmenting and so we need to place our 
bets on a group that could be a part of the future of--you 
know, whether it is a constellation of--you know, a federated 
approach. Taking it on a case-by-case basis I think will be 
key.
    Mr. Eggers. Senator, I would just add that while I think it 
is obvious that the 21st century power is shifting from states 
to non-state actors and we have to monitor and try and kind of 
adapt in keeping with that trend, I think we should be cautious 
about shifting to the mode of kind of working with non-state 
actors in the same way until we kind of fully kind of shift off 
the Westphalian world order. Our track record in picking these 
types of course is not always good. I think that there is a 
risk of slipping from perhaps in this case backing what happens 
to be a very effective force fighting for our interests to 
having unintended consequences where we are stepping in the 
middle of kind of a larger regional dynamic among rivals with 
proxies or in other cases backing kind of an ethnicity without 
a state. There are serious consequences I think that have to be 
considered as long as we are still more or less trying to work 
with kind of the Westphalian world order.
    Mr. McNerney. I would say, Senator, if you can find ways to 
help that non-state actor in a way that reinforces the eventual 
institutions of the central government, then it can be 
valuable, but, as Mr. Eggers said, that can be a pretty tricky 
thing to navigate.
    Senator Kaine. Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Kaine.
    I would like to thank all three of you for being here 
today. The information you have provided will be most valuable 
to us. Thank you very much.
    We are adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
